                                   CLOSEOUT FOR M94030008
         On March 9,1994, the complainant1 sent OIG and the NSF program office? a letter alleging
that a journal pape? contained data that was either fabricated or falsiied. The paper was authored by
three professors, subject 1; subject 2,5 subject 3,6 and subject 4, the graduate s t ~ d e n t . ~The
complainant said that he notified OIG because two of the authors had NSF funding. The complainant
claimed that a scientist's attempts to reproduce the data, using the same data and mathematical
techniques, were unsuccessfi.d. He provided the scientist's results and the scientist's comparison of his
results to the results claimed in the paper. The complainant also furnished the scientist's estimate of the
probability that the authors actually obtained the results they claimed and concluded that the authors
did not obtain two thirds of the main results they reported. He was concerned because if these results
are false, they could distort the research priorities of the field, a concern he felt was justified because
"the original paper has been recently republished as a classic study."
        The complainant stated that the scientist had attempted to have a Comment published in the
same journal that published the original paper. The journal's editor did not think it was necessary
because a previously published Comment by diierent authors had already addressed the problem the
scientist was raising. The scientist had also attempted to clarifjr the issues directly with the
authors. The complainant claimed that their (the professors') response to the scientist indicated that
data considered unavailable had been used, contrary to their statements in the paper and their published
Response to the Comment by the diierent authors.
         OIG reviewed the subjects' NSF PI history. Of the four subjects, subjects 1-3 had submitted
proposals to NSF and subject 1 had received W i g , apparently related to this research. Subject 1 had
listed the journal paper in several of his proposals as having been supported by NSF.
         OIG asked the program officer to assess the validity of the allegations raised by the
complainant and if he thought the subjects' response to the scientist contradicted their published
results. He agreed with the general substantive analysis of the scientist and also thought the subjects'
response indicated that "the[ir] own statements substantially support the allegations" raised in the
complainant's letter.
        OIG mailed letters to subjects 1-3 asking them to explain the discrepancies in the results
presented in their paper, the allegations of the complainant, their response to the scientist, and the
relation of the paper to their subsequent proposals. Their responses were consistent and indicated that


   '  (footnote redacted).
   '(footnote redacted).
      (footnote redacted).
      (footnote redacted).
      (footnote redacted).
      (footnote redacted).
      (footnote redacted).

                                               Page 1 of 2
                                   CLOSEOUT FOR M94030008

1) only subject 1 had obtained any NSF funds,
2) the NSF proposals that followed the publication of the paper were not dependent on it, and
3) the professors were responsible for designing the scope of the project and writing the manuscript
   and the graduate student was responsible for the writing and execution of the computer code that
   produced the results.
The professors composed the response to scientist because the graduate student had transferred to
another university and had refused their requests for assistance in diectly addressing the allegations
raised by the complainant. Their response to the complainant was consequently based on their
interpretation of how they thought the graduate student had calculated the results.
        OIG contacted the graduate student who responded that he was indeed responsible for the
writing and executing of the numerical codes used to produce the published results. He explained that
while responding to our letter, he noticed a significant rniswording in the paper. The methodology as
described in the original paper was not consistent with the method he had actually employed in his
simulations. The graduate student explained how what he really did differed from what one might
interpret from a reading of the paper. He offered to submit a correction to the editor of the journal that
published the paper.
        OIG again consulted with the program officer. He explained that the graduate student's
explanation ww plausible, but that it then made some of the conclusions not as significant. He also
agreed that the figures and tables would have to be better explained to be consistent with the revised
procedure.
        Regarding subject 1's claim that the research presented in the paper was supported by NSF, we
learned from him that it had already been completed and presented at a conference by the time NSF
received his proposal related to this research. In the prior support section of his subsequent NSF
proposals, subject 1 had merely described related research, rather than research that was strictly
supported by NSF. The graduate student also said that he had received no hancial support from NSF
and was the recipient of a three-year University Fellowship at the time. He apparently worked
primarily with subject 3 and left the university after his Fellowship expired.
        All subjects agreed that the graduate student was responsible for the numerical simulations and
that he had received no funds fiom NSF. OIG decided that it did not have jurisdiction over this
case. OIG agreed, however, with the graduate student's offer to write a correction and submit it to the
publishers of the journal and the publishers that made the reprinting. OIG suggested that the graduate
student coordinate his response with the other authors (subjects). OIG also cautioned subject 1 to
exercise more care in the preparation of his prior support section in his NSF proposals.
        This inquiry is closed and no hrther action will be taken on this case.



cc: StafFScientist, Deputy AIG-Oversight, AIG-Oversight, IG



                                               Page 2 of 2
